Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





    NURSE AIDE REGISTRIES: 

    STATE COMPLIANCE AND 

         PRACTICES





                     Inspector General

                      February 2005
                     OEI-07-03-00380
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG’s Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG’s internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
I N
       E X E CU UC TT I I VO EN
      T R O D
                                                             S U M M A R Y



                    OBJECTIVE
                    To determine State compliance with Federal regulations for
                    (1) updating the nurse aide registry records of nurse aides who had
                    substantiated findings of abuse, neglect, or misappropriation of
                    property, (2) removing the records of nurse aides who had not performed
                    nursing or nursing-related services for 24 consecutive months, and (3) to
                    review State nurse aide registry practices.


                    BACKGROUND
                    The Omnibus Budget Reconciliation Act of 1987 contained provisions
                    designed to assure delivery of quality care to long-term care facility
                    residents. Federal regulations (42 CFR § 483.156) require each State to
                    establish and maintain a registry of individuals who have completed
                    training and who the State finds to be competent to function as nurse
                    aides. Nurse aide registries also must include information on any
                    substantiated finding of abuse, neglect, or misappropriation of property
                    made by the State survey agency related to an individual.

                    Used properly, State nurse aide registries prevent unemployable
                    individuals from being employed in long-term care facilities. Federal
                    regulations require that States update the nurse aide registry records of
                    nurse aides with a substantiated finding within 10 working days of
                    substantiating that finding. States also must remove from the registry
                    the records of nurse aides who have not performed nursing or
                    nursing-related services for a period of 24 consecutive months, unless
                    the records include substantiated findings. Those records must remain
                    on the registry indefinitely, except under specific circumstances, such as
                    notification of the death of the individual.


                    FINDINGS
                    Some States failed to update registries with substantiated adverse
                    findings.
                    At least 24 of the 38 States that we analyzed in detail did not meet
                    Federal regulations for updating registry records of nurse aides with
                    substantiated findings within 10 working days. Records of 1 in 4 nurse
                    aides (450/1,978) with recent substantiated findings were not updated
                    on the appropriate State registry 10 working days after the last possible
                    substantiation date in our review period. Of the 450 nurse aide records


  OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   i
E X E C U T I V E                       S U           M M A R Y


                   not updated, 236 still were not updated on the appropriate nurse aide
                   registry 3 months after our initial verification.
                   Over half of State survey respondents reported failure to remove
                   records of inactive nurse aides from registries; some individuals
                   with substantiated adverse findings in one State were actively
                   certified in others.
                   Twenty-eight State survey respondents reported that they did not
                   remove records of inactive nurse aides from their registries as required,
                   and over 99,000 nurse aides had active certifications in multiple States.
                   Additionally, more than 1,500 nurse aides with substantiated findings
                   had certifications in at least 1 other State, and were, therefore,
                   potentially employable in that other State. More than 300 nurse aides
                   had substantiated findings in more than 1 State.
                   Some State-specific practices could make it more difficult to prevent
                   certain individuals from working as nurse aides.
                   State survey respondents reported using status classifications in their
                   registries other than, and in addition to, those required in Federal
                   regulation. In addition, some registries lacked complete information
                   and many States relied on nurse aides to keep registry information
                   up-to-date, contributing to inaccurate or out-of-date information
                   existing on registries.


                   RECOMMENDATIONS
                   To assure that nurse aide registries effectively fulfill their intended
                   purpose, we recommend that the Centers for Medicare & Medicaid
                   Services (CMS):

                   • 	 Ensure States update records of nurse aides with substantiated
                       adverse findings timely and remove registry records of nurse aides
                       who have not performed nursing or nursing-related services for
                       24 consecutive months, in accordance with Federal regulations.
                       CMS could achieve this by: (1) issuing program memoranda that
                       address updating nurse aide registry records, (2) conducting periodic
                       reviews of State registries, or (3) implementing greater oversight.

                   • 	 Reduce the potential for nurse aides with substantiated findings to
                       commit similar acts in another State. CMS could achieve this by
                       seeking legislative authority to create a national nurse aide registry
                       (a national registry also could be used to address identified data
                       limitations, such as the lack of dates when substantiated findings

 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   ii
E X E C U T I V E                       S U           M M A R Y


                          are placed on registries). CMS also could work with States to
                          increase information sharing.

                   • 	 Work with States to ensure registry records contain current
                       information on nurse aides. CMS could achieve this by requiring
                       long-term care facilities to report current information of nurse aides
                       they employ to the State registry upon hire and periodically
                       thereafter.


                   AGENCY COMMENTS
                   We appreciate the level of detail that CMS provided in their comments
                   to our recommendations. CMS generally concurred with our
                   recommendations, and we note that CMS has taken action to address
                   some of the findings raised in our report.




 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   iii
∆   T A B L E           O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 8

                    Failure to update registries with substantiated adverse findings . 8 


                    Failure to remove records of inactive nurse aides from registries 

                    and individuals with substantiated adverse findings in one State 

                    were actively certified in others . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                    Practices make it more difficult to prevent certain individuals 

                    from working as nurse aides . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                    A: 	Many States do not update registry records with 

                        substantiated adverse findings timely . . . . . . . . . . . . . . . . . . . . . 23 


                    B: 	Nurse aides with substantiated adverse findings may have 

                        active certifications in other States . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    C: 	Nurse aides with pending adverse findings may have 

                        active certifications in other States . . . . . . . . . . . . . . . . . . . . . . . . 25 


                    D: 	State suggestions and improvement efforts . . . . . . . . . . . . . . . . . 26 


                    E: 	State compliance with specific registry components . . . . . . . . . 27 


                    F: 	Information available on the State nurse aide registry . . . . . . . 28 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                                     CTI

                     OBJECTIVE
                     To determine State compliance with Federal regulations for
                     (1) updating the nurse aide registry records of nurse aides who have
                     substantiated findings of abuse , neglect , or misappropriation of
                     property, (2) removing the records of nurse aides who have not
                     performed nursing or nursing- related services for 24 consecutive
                     months , and (3) to review State nurse aide registry practices.

                     BACKGROUND
                     Federal Regulation
                     The Omnibus Budget Reconciliation Act of 1987 was designed to assure
                     delivery of quality care to long- term care facility residents. Federal

                     regulations (42 CFR     483. 156) require each State and the District
                     Columbia (hereinafter referred to as a State) to maintain a nurse aide
                     registry of all individuals . who are certifed to work as nurse aides in
                     that State (all individuals who have completed nurse aide training and
                     that the State deems competent to function as nurse aides!) as well as
                     all individuals who have been prohibited from employment as nurse
                     aides in long- term care facilities because of substantiated findings of

                     abuse , neglect , or misappropriation ofproperty. 2 Throughout the
                     report , we use the term " substantiated findings " to refer to State survey
                     and certification agencies ' substantiated findings (against a nurse aide)
                     of abuse , neglect , or misappropriation of property.

                     Nurse aide registries must include at a minimum: (1) the full name of
                     the individual ,
                                    (2) identifying information , (3) the date the individual
                     became eligible for placement in the registry, and (4) information
                     regarding substantiated findings (as appropriateP


                     1 Nurse aide refers to any individual who is not a licensed health professional



                                        75(e)).
                                                                                                    , a registered
                      dietitian , or someone who volunteers to provide nursing or nursing- related services
                      without pay and who provides nursing or nursing- related services to residents in a facility
                       (42 CFR   483.
                     2 The applicable regulations define abuse as " ...    the wilful infliction of injury,
                      unreasonable confinement , intimidation , or punishment with resulting physical harm
                      pain or mental anguish. " Neglect is defined as " . . . failure to provide goods and services
                      necessary to avoid physical harm , mental anguish , or mental ilness." Misappropriation of
                      resident property is defined as " . . . the deliberate misplacement , exploitation , or wrongful
                      temporary or permanent use of a resident's belongings or money without the resident'
                      consent. . .   " (42 CFR   488. 301).
                      42 CFR    483. 156(c)(I.


OEI- 07. 03- 00380   NURSE AIDE REGISTRIES: STATE COMPLIANCE AND PRACTICES
I N T R O D 
U C T                  I O N


                   The nurse aide registry should include information only on those
                   individuals who have “active” certifications and are thus employable
                   and individuals whose records include substantiated findings. Federal
                   regulations require States to remove registry records of individuals who
                   have not performed nursing or nursing-related services for a period of
                   24 consecutive months, thus becoming “inactive” and no longer
                   employable.4 Individuals with records of substantiated findings must
                   remain on the registry permanently, unless the findings were made in
                   error, the individual was found not guilty in a court of law, or the State
                   is notified of the individual’s death.5 The Balanced Budget Act of 1997
                   (Public Law 105-33 § 4755) established the only exception, which allows
                   nurse aides with substantiated findings of neglect to petition the State
                   to have their name removed from the registry. Such an individual must
                   wait at least 1 year from the date on which the substantiated finding
                   was added to the State nurse aide registry, and the State must
                   determine that the employment and personal history of the nurse aide
                   did not reflect a pattern of abusive behavior or neglect, and that the
                   neglect involved a singular occurrence.
                   Purpose of State Nurse Aide Registries
                   State nurse aide registries are intended to assure that long-term care
                   facilities employ only certified nurse aides who do not have
                   substantiated findings. Federal regulation requires long-term care
                   facilities to not employ individuals who have a substantiated finding
                   entered into the State nurse aide registry6 and to check the State
                   registry before hiring nurse aides to verify competency.7 Assuring the
                   integrity of States’ registries is a critical step in providing a safe living
                   environment for more than one million, mostly elderly, residents in
                   long-term care facilities nationwide.8 While the majority of nurse aides
                   perform their duties without committing acts of abuse, neglect, or
                   misappropriation of property, those who do create concerns. Examples
                   of investigative case histories follow:

                   • 	 A nurse aide pushed a resident, causing the resident to fall to the
                       floor. The nurse aide later retrieved a snow shovel from the kitchen,


                   4 42 CFR § 483.156(c)(2). 

                   5 42 CFR § 483.156(c)(1)(iv)(D). 

                   6 42 CFR § 483.13(c)(1)(ii)(B). 

                   7 42 CFR § 483.75(e)(5). 

                   8 We will refer to nursing homes and skilled nursing facilities as long-term care facilities in 

                     this report. All CFR references refer to these facilities as long-term care facilities.



 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                  2
I N T R O D 
U C T                  I O N


                          and while the resident was still on the floor, struck the resident with
                          the shovel and yelled that she was going to kill the resident (from
                          the Virginia registry).

                   • 	 A nurse aide neglected a resident by leaving the resident in the 

                       facility transport van. The nurse aide left for the day at 

                       approximately 5:00 p.m. The resident was found alone in the van 

                       later that day at approximately 6:20 p.m. when he could not be 

                       located in the facility (from the North Carolina registry). 


                   • 	 A nurse aide took a resident’s debit card without permission, got the
                       personal identification number, and withdrew money from the
                       resident’s bank account totaling approximately $1,100 over an
                       unknown period of time (from the Texas registry).

                   State survey and certification agencies receive and investigate
                   allegations against nurse aides regarding abuse, neglect, or
                   misappropriation of property. Federal regulations require placing
                   information regarding a substantiated finding on the registry within
                   10 working days of substantiating that finding.9 In 13 States, the State
                   survey agency was responsible for both investigations and maintenance
                   of the nurse aide registry. In 38 States, investigations were performed
                   by 1 State agency and maintenance of the registry by another.
                   Overview of State Nurse Aide Registries
                   As of September 15, 2003, State nurse aide registries contained
                   2.6 million nurse aide certifications in the United States.10 Out of these,
                   39,061 records (33,768 unique individuals)11 were of nurse aides who
                   were listed with substantiated findings and/or had their certifications
                   revoked.12 There were an additional 14,243 records (13,435 unique
                   individuals) of nurse aides who were listed as suspended or under
                   investigation for abuse, neglect, or misappropriation of property. We
                   note that Federal regulations do not require State nurse aide registries
                   to maintain records of suspension or findings under investigation.




                   9 42 CFR § 483.156(c)(1)(iv)(D).
                   10 The results presented in this section are based on Office of Evaluation and Inspections
                     analysis of nurse aide registry data during preparation for this report.
                   11 There are more records than there are unique individuals because an individual nurse
                     aide may be listed on more than one State registry.
                   12 We use the term “revoked” to indicate nurse aides with denied, terminated, or revoked
                       certifications or who have records with substantiated findings.



 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                3
I N T R O D 
U C T                  I O N


                   The size and scope of the registries varied greatly among States,
                   ranging from 2,690 nurse aides in Alaska to 298,327 in Florida. The
                   amount and types of information States stored on their registries also
                   varied greatly. Some States included many details regarding topics
                   such as identifying information, method and date of testing, certification
                   and expiration dates, and the nature, investigation, and dates of any
                   allegations or substantiated findings against the nurse aides; other
                   States maintained registries that included only the information that
                   Federal regulations specifically require.
                   Other Studies Found Weaknesses with Registries
                   Previous studies of nurse aide registries identified a number of
                   weaknesses with registry practices in some States and indicated that
                   State compliance with Federal nurse aide registry regulations was
                   inconsistent. A 1997 Office of Inspector General (OIG) audit on the
                   Maryland nurse aide registry reported that the registry did not always
                   include information on all nurse aides with substantiated findings.13 A
                   1998 OIG audit reported that criminal background checks were limited
                   to State records, and individuals with criminal histories were not
                   recorded on registries.14
                   A 2002 Government Accountability Office (GAO) report also identified a
                   number of potential problems with nurse aide registries.15 Based on a
                   review of three States, GAO found that there were “frequent and long
                   delays” in including information about substantiated findings on
                   registry entries. The GAO also found that State registries only reflected
                   a nurse aide’s history in that particular State, leaving open the
                   possibility that long-term care facility residents could be exposed to
                   nurse aides who had substantiated findings in other States, or whose
                   registry records were not updated. Further, the report found that
                   variations in the way that States applied the definition of abuse caused
                   inconsistencies in nurse aide registry information across States.
                   Finally, GAO found that one State’s electronic registry failed to update
                   its Web site with substantiated findings.


                   13   State of Maryland’s Ombudsman Program for Processing Elder Abuse and Neglect
                        Complaints of Geriatric Nurse Aide Registry. Office of Inspector General, A-12-96-00016
                        (11/97).
                   14   Safeguarding Long-Term Care Residents. Office of Inspector General, A-12-97-00003
                        (09/98).
                   15 United States Government Accountability Office,   Long-term Ca
re Facilities: More Can
                        Be Done to Protect Residents from Abuse
, GAO-02-312 (Washington, DC: March 2002).


 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                               4
I N T R O D        U C T             I O N 





                    METHODOLOGY
                    This study was based on information from several different sources:
                    (1) a review of Federal regulations regarding nurse aide registries;
                    (2) a review of the existing literature and studies on nurse aide
                    registries; (3) survey responses from the agencies responsible for the
                    registries in all States; and (4) actual registry information and
                    substantiated findings data from all States.
                    State Survey
                    We asked representatives from the State agencies that were responsible
                    for maintenance of the registries and the investigative units in all
                    States to complete an online survey regarding the practices, policies,
                    and procedures they followed in maintaining their registries, their
                    opinions on the effectiveness of their registry practices, and the
                    challenges they faced in maintaining accurate information. We received
                    responses from all such agencies. Where appropriate, we defined
                    instances in which information came solely from survey data.
                    Registry and Investigative Agency Data
                    We requested and received data from all States comprising their entire
                    nurse aide registry as of September 15, 2003. Per our request, the data
                    included information on both employable nurse aides and those nurse
                    aides with substantiated findings, as determined by the State survey
                    and certification agency. For the 38 States that had a separate agency
                    responsible for investigating allegations of abuse, neglect, or
                    misappropriation of property, we also requested from the investigative
                    agency a list of the nurse aides with substantiated findings between
                    September 15, 2002, and September 15, 2003. Because a single agency
                    handled both investigative and registry maintenance in the remaining
                    13 States, we did not request a separate list of nurse aides with
                    substantiated findings from those States because there was no data
                    source independent from the registry itself to generate a list of nurse
                    aides with substantiated findings in these States. These States were
                    excluded from analyses used to determine if registries were updated
                    timely with substantiated findings.
                    Analysis
                    For the 38 States with separate State registry maintenance and
                    investigative agencies, we compared the list of substantiated findings
                    provided by the investigative agency covering the period



 OEI-07-03-00380    N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                            5
I N T R O D 
U C T                  I O N


                   September 15, 2002 through August 28, 200316 to the State registry
                   data we received from the agency responsible for maintaining the
                   registry to determine if all the nurse aides with substantiated findings
                   on the investigative agency list also appeared on the registry having
                   substantiated findings. Where nurse aides with substantiated findings
                   were included on the investigative agency list but not on the nurse aide
                   registry, we accessed the appropriate State registry 3 months later, in
                   December 2003, by telephone or online to determine whether their
                   records had been updated.

                   We combined the nurse aide registry data from all States, including
                   those nurse aides with substantiated findings, to create a simulated
                   national nurse aide registry as of September 15, 2003. We then
                   compared the data included in the simulated registry to determine how
                   many nurse aides had active or revoked certifications in multiple
                   States. We also analyzed the data provided by all 51 States to
                   determine States’ compliance with Federal regulations regarding
                   required information for nurse aides on the registry, including full
                   name, identifying information, date of certification, and information
                   regarding substantiated findings.
                   Limitations of Updates to Registries and Multi-State Analysis
                   Nurse aide registries did not consistently contain data regarding the
                   date when findings were substantiated and/or when those findings were
                   placed on the registries. Therefore, we could not determine exactly how
                   many States failed to update registries with substantiated findings
                   timely, nor could we determine how long it took States to update
                   registries with substantiated findings in the 38 States where 1 agency
                   was responsible for registry maintenance and another agency was
                   responsible for investigations. We could not determine the number of
                   records not updated timely that were at least 10 working days beyond
                   the date the finding was substantiated.

                   Our ability to definitively determine the number of nurse aides with 

                   certifications and/or substantiated findings in multiple States was 

                   compromised by the lack of a nationally unique identifier (i.e., Social 

                   Security number or national certification number) in nurse aide 


                   16 42 CFR § 483.156(c)(1)(iv)(D) requires that information be included within 10 working
                       days of the finding; therefore, we reviewed substantiated findings up to 10 working days
                       prior to September 15, 2003, or August 28, 2003. Federal law allows nurse aides with
                       findings of neglect to petition to have their names cleared after 1 year; thus, we limited
                       our scope to a period of 1 year.



 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                    6
I N T R O D        U C T             I O N


                    registries across all States. Therefore, we included only exact matches
                    based on nationally unique identifiers that did exist (e.g., we matched
                    Social Security numbers for States that provided us this information)
                    when identifying nurse aides with certifications and/or substantiated
                    findings in multiple States. Because of these limitations, our estimate
                    of the magnitude of nurse aide movement between States was
                    conservative.
                    Standards
                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-07-03-00380    N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                            7
                                                              Federal regulations require
      Some States failed to update registries with
                                                              that State survey and
                      substantiated adverse findings
                                                              certification agencies list
                     nurse aides with substantiated findings on the State nurse aide registry
                     within 10 working days of the substantiation ofthe finding.1 Based
                     the previously described data limitations ,
                                                               we believe our estimates of
                     failure to comply, both in terms of number of States and number of
                     records not updated timely, are conservative.
                     Twenty-four States reviewed did not meet Federal regulations for updating
                     registry records of nurse aides with substantiated adverse findings timely;
                     one in four nurse aide records were not updated with recent substantiated
                     adverse findings.
                     Based on our comparison of investigative agency and registry data , at
                     least 24 of the 38 States with separate registry maintenance and
                     investigative agencies 18 had substantiated findings that were not
                     updated in their respective registries as of September 15 , 2003
                     10 working days after the end of our review period (see Appendix                         A).

                     In addition to the 24 noncompliant States , survey respondents from
                     4 other States acknowledged that it typically took them more than the
                     required 10 working days to update their registries with information
                     about substantiated findings. However , survey respondents from 19 of
                     the 24 States that we found to be out of compliance based on registry
                     data indicated that they believed they typically met the 10 working day
                     requirement contained in the regulation.
                     Thirty- eight States with separate registry maintenance and
                     investigative agencies had substantiated findings against 1 978 nurse
                     aides from September 15 , 2002 , through August 28 , 2003. 19 Of these
                     23 percent (450/1 978) ofthe nurse aides '
                                                              records were not updated with
                     substantiated findings on the appropriate State s registry as of
                     September 15 ,         2003 , 10 working days after the end of our review period.
                     Although the State survey and certification agencies had substantiated
                     findings for these 450 nurse aides , the nurse aides were potentially
                     employable in any long- term care facility in that State because their

                     17 42 CFR ~ 483. 156(b)(2) and 42 CFR ~ 483. 156(c)(I(iv)(D).
                     18 Thirty- eightStates had two separate agencies responsible for investigating allegations
                        and maintaining the registry. Thirteen States had one agency responsible for both
                        investigating allegations and maintaining the registry; therefore , it was not possible to
                       obtain an independent list of the nurse aides who had substantiated findings.
                     19 August 28 , 2003 , is 10 working days prior to September 15 , 2003.



OEI- 07- 03- 00380   NURSE AIDE REGISTRIES: STATE COMPLIANCE AND PRACTICES
F 	I N D I N G 
S


                   registry records did not include information on their substantiated
                   findings.

                   Because most States did not record the dates they added substantiated
                   findings to their registries, we were unable to determine when the
                   remaining 1,528 (1,978 less 450) substantiated findings were updated
                   on the appropriate registries. It is, therefore, possible that the number
                   of noncompliant States and the number of nurse aide records not
                   updated within the required 10 working days could be higher. For
                   example, had a record with a substantiated finding been updated
                   30 days after substantiation, but before September 15, 2003, we would
                   not have identified it based on the methods available to us to assess
                   compliance.
                   Almost one in eight nurse aide records with substantiated adverse findings
                   were not updated 3 months later.
                   In December 2003, we accessed the registries of those 24 States in
                   which we found 450 nurse aides with substantiated findings whose
                   records were not updated as of September 15, 2003. Upon completion of
                   the second review, 236 records of nurse aides still were not updated
                   with substantiated findings.20 Thus, 3 months later, and after States
                   were aware of our study, 12 percent (236/1,978) of the records of nurse
                   aides with substantiated findings, representing 19 States, still were not
                   updated.

                   Two examples of the behavior that led to substantiated findings for
                   nurse aides whose records were not updated on the registry, taken from
                   information the investigative agencies provided, follow:

                   • 	 A nurse aide poured milk on a resident’s head, grabbed his arms
                       and pushed him back into the wheelchair, and hit him on the head,
                       causing multiple skin tears and bruises (from the Texas
                       investigative agency).

                   • 	 A nurse aide struck a resident in the face, fracturing his nose, and
                       breaking his glasses (from the Alaska investigative agency).




                   20 Florida State officials indicated that responsibility for the nurse aide registry transferred
                       among different agencies within the State. Few record updates of nurse aides with
                       substantiated findings occurred during these transitions. None of the 109 nurse aides
                       with substantiated findings in Florida during our review period were identified as such
                       on the nurse aide registry at any time during our review.



 OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                  9
F   I N D I N G        S 



                      The well-being of long-term care facility residents was placed at risk
                      because these nurse aides continued to appear employable due to
                      registry records not updated to reflect their substantiated findings.


                                                                                                     As of September 15, 2003,
Over half of State respondents reported failure
                                                                                                     2.6 million nurse aides were listed
to remove records of inactive nurse aides from
                                                                                                     with active certifications on nurse
registries; some individuals with substantiated                                                      aide registries nationwide, with
             adverse findings in one State were                                                      99,006 having active certifications
                      actively certified in others                                                   in more than 1 State (see Table 1).
                      Many States failed to remove records of inactive nurse aides from their
                      registries.
                      Federal regulations do not prohibit nurse aides from holding
                      certifications in different States simultaneously; however, Federal
                      regulations require States to remove from the registries the records of
                      nurse aides who have not performed nursing or nursing-related services
                      for a period of 24 consecutive months, as long as the nurse aides’ records
                      do not contain substantiated findings.21
                      Survey respondents from 28 of 51 States                                                 Table 1: Number of Nurse
                      reported that they did not remove the                                                   Aides with Certifications in
                      records of nurse aides who failed to                                                           Multiple States
                      maintain their certification. Five of these                                             Number of       Number of
                                                                                                                States       Nurse Aides
                      twenty-eight States reported that the
                                                                                                                   2            93,697
                      status of records was changed when nurse                                                     3            4,919
                      aides failed to maintain their certification;                                                4             342
                      however, the remaining 23 States did not                                                     5              35
                      report making a distinction between the                                                      6              10
                                                                                                                   7               1
                      records of active and inactive nurse aides
                                                                                                                   9               1
                      on the registry. Oftentimes, the nurse aide                                                 10              1
                      registry data available to us did not allow                                                Total          99,006
                      us to determine if nurse aide records
                                                                                                              Source: OIG analysis of all collected
                      should be removed from the registry.                                                    nurse aide registry records

                      States failing to remove the records of inactive nurse aides could lead to
                      nurse aides being employed in long-term care facilities even though they
                      have not maintained their certification or, more significantly, returning




                      21 42 CFR § 483.156(c)(2).




    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                                            10
F   I N D I N G        S 



                      to a State where they have an active certification despite having a
                      substantiated finding in another State.

                      Some States acknowledged failing to remove the records of nurse aides
                      who had not maintained their certifications and our analysis showed
                      that some of the nurse aides with multiple certifications held them in
                      nonneighboring States. Thus, it was possible that some of the
                      99,006 nurse aides with more than 1 active certification should have
                      had their records in the other State(s) removed to reflect that the
                      certification was no longer active.
                      More than 2,000 nurse aides with substantiated or pending adverse findings
                      in 1 State had active certifications in other States.
                      A total of 1,552 nurse aides with either substantiated findings and/or
                      revoked certifications, and another 450 nurse aides with pending
                      findings in a State were also actively certified in 1 or more other States
                      (see Table 2). A detailed State breakdown for substantiated findings
                      can be found in Appendix B and pending findings in Appendix C.

                      Nurse aides with
                      pending or                   Table 2: Nurse Aides with Substantiated or
                                                  Pending Findings Actively Certified in Other
                      substantiated
                                                                           States
                      findings not only held
                      active certifications                      Number of Nurse               Number of
                      in neighboring               Actively            Aides     with         Nurse    Aides
                                                 Certified in       Substantiated            with Pending
                      States, but also held
                                                                        Findings                Findings
                      active certifications
                      across the Nation.           1 State                 1,412                    418
                      For example,                 2  States                122                      29
                                                   3 States                  14                       3
                      33 nurse aides with
                                                   4 States                   3                       0
                      substantiated                5 States                   1                       0
                      findings from                  Total                 1,552                    450
                      Virginia had active      Source: OIG analysis of all collected nurse aide registry
                                               records
                      certifications in
                      Florida, and 19 nurse aides with substantiated findings in California
                      had active certifications in Illinois.

                      The data provided did not allow us to conclude where the nurse aides
                      resided at the time of our study. In addition, the data did not allow us
                      to determine the date the findings were substantiated in one State or
                      the dates the certifications were granted in another State. Thus, the
                      active certification in one State could have been granted before or after
                      the nurse aide had a substantiated finding in a different State.

    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                              11
F   I N D I N G 
S


                      More than 300 nurse aides had substantiated adverse findings in multiple
                      States.
                      Based on the data we received, we were able to conclusively identify
                      314 nurse aides who had records with matching unique identifiers and
                      substantiated findings in multiple States (i.e., the same individual had
                      different substantiated findings in different States). Our analysis
                      indicated that there could be as many as 4,569 nurse aides with unique
                      substantiated findings in multiple States. However, due to how States
                      maintained information in their registries, we could not definitely
                      determine whether substantiated findings of some nurse aides were
                      unique, independent events or were instead substantiated findings
                      included on that State’s registry, but had occurred in another State.
                      Some individuals who had substantiated adverse findings as nonnurse
                      aides in one State were actively certified as nurse aides in others.
                      The data that Arkansas provided allowed us to identify 3,391 nonnurse
                      aides (e.g., staff who were not nurse aides, such as janitors) with
                      histories of abuse. Of these, 1 percent (36/3,391) also had records listing
                      them as active nurse aides in at least 1 other State. Since we were only
                      able to assess the number of nonnurse aides with substantiated findings
                      from one State, it was possible that similar situations existed in other
                      States.
                      Despite States’ efforts, nurse aides with substantiated adverse findings had
                      active certifications.
                      According to survey data, 33 States responded that they included
                      substantiated findings from other States on their registries and that an
                      out-of-State finding disqualified a nurse aide from certification and
                      employment in their respective State.22 Yet, as of September 15, 2003,
                      32 of these 33 States had an active certification for at least 1 nurse aide
                      who was prohibited from working in another State. As previously
                      stated, data available in State registries did not always allow us to
                      determine when a substantiated finding was placed on a registry;
                      therefore, we could not determine if the substantiated finding occurred
                      before or after a certification was issued in these 32 States. Possible
                      explanations as to how nurse aides with substantiated findings could
                      become certified in a new State include: (1) while a certification in one
                      State remains active, the nurse aide moves to a new State, becomes

                      22 Twelve additional States indicated that a substantiated finding in another State would
                          have to be reviewed before they might disqualify the nurse aide from working in their
                          State.



    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                  12
F   I N D I N G        S


                      certified, and subsequently abuses, neglects, or misappropriates a
                      resident’s property; (2) the State where the offense occurred does not
                      enter the substantiated finding on the registry timely, thus allowing the
                      nurse aide to appear employable in another State; or (3) the new State
                      does not become aware of the substantiated finding because of
                      inadequate information sharing. These problems are exacerbated when
                      States do not remove records of nurse aides from registries as required.


                                                                 States have implemented
         Some State-specific practices could make it
                                                                 varying practices in the
          more difficult to prevent certain individuals
                                                                 maintenance of their
                          from working as nurse aides            registries. For example, some
                      States used status classifications other than those required in Federal
                      regulation and States differed in their efforts to update registry
                      information. Some of these practices, while beneficial to the individual
                      States, may increase difficulties as other States work to prevent certain
                      individuals (e.g., those with substantiated findings) from working as
                      nurse aides. This problem is compounded when the information
                      contained on registries is inaccurate or incomplete.
                      Although we did not specifically ask State survey respondents about a
                      national nurse aide registry, the most commonly suggested
                      improvement was the creation of a national registry. Twenty State
                      survey respondents expressed the opinion that a national registry would
                      be helpful, both for reciprocity purposes and in preventing nurse aides
                      with substantiated findings from working in other States.23 See
                      Appendix D for examples of efforts some States have undertaken to
                      improve their registry processes and State survey respondents’
                      suggestions for improvement.
                      Eighteen States used status classifications in addition to those Federal
                      regulations require.
                      Substantiated findings leading to prohibition of employment as a nurse
                      aide were not the only punitive sanctions that States established and
                      maintained in their State registries. Eighteen States had various

                      23 Reciprocity is a process by which a certified nurse aide from another State may qualify
                          for certification in a new State by virtue of his or her status in the previous State. An
                          individual is only eligible for reciprocity if he or she has been entered on a nurse aide
                          registry in another State in accordance with the training and competency evaluation
                          requirements of the Omnibus Budget Reconciliation Act of 1987, as amended, and if the
                          individual is currently listed on that State’s nurse aide registry as active and without
                          substantiated findings.



    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                   13
F   I N D I N G 
S


                      status classifications to distinguish levels of misconduct. For example,
                      we encountered status classifications such as “Suspended,” “Revoked,”
                      “Dismissed,” “Lapsed,” and “Lapsed-Conditional” in one State’s registry
                      (in addition to the federally required indications of nurse aides with
                      substantiated findings). Another State had 40 status classifications to
                      classify the various dispositions of individuals listed on their registry.
                      Nationwide, we found that 14,243 nurse aide records were listed as
                      “Suspended,” “Surrendered,” “Pending,” or some similar status
                      classification. From the information States provided, we were unable to
                      determine if the acts indicated within these other status classifications
                      fit the Federal definition of abuse, neglect, or misappropriation of
                      property. This created a potential challenge for another State
                      attempting to use this information in determining whether to certify an
                      individual as a nurse aide.

                      While Federal regulations do not require States to do so, 10 of 51 States
                      reported pending cases of abuse, neglect, or misappropriation of
                      property on the registry before the case had actually been
                      substantiated, thus alerting employers of potential problems. One State
                      noted this as a special concern because it could result in nurse aides
                      who did not have substantiated findings being prohibited from
                      employment. Four other States noted pending cases on a section of the
                      registry that was not available to the public.
                      Most States relied on nurse aides to keep registry information up-to-date.
                      Survey respondents from 48 States reported that they relied mainly on
                      the nurse aides themselves to report changes in personal information
                      directly to the registry. However, this approach did not work
                      effectively. Eighteen State survey respondents indicated that they
                      experienced difficulties in keeping accurate and up-to-date personal
                      information, such as names, addresses, and renewals of certification, in
                      their registries. Eleven State survey respondents expressed that nurse
                      aides frequently changed employers and residences, making it difficult
                      to assure that the nurse aides’ most recent information was available.




    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                              14
F   I N D I N G 
S


                      Several State registries lacked complete information.
                      We reviewed individual State nurse aide registry records for full name,
                      certification date, and other identifying information as provided in
                      42 CFR § 483.156(c)(1). According to registry data, 45 of 51 States had
                      at least 95 percent of all records with the 3 basic fields completed, while
                      6 States had less than 90 percent of records with at least 1 required
                      field complete (see Table 3 for general and Appendix E for specific
                      information).24 A listing of data elements contained in State registries
                      appears in Appendix F.25 Given that Federal regulations do not require
                      States to maintain a nationally unique identifier for nurse aide records,
                      information that could be used in lieu of such an identifier becomes
                      more important.

                                Table 3: State Level of Compliance with Federal Requirements
                                 Requirement         Level of Compliance     Number of States
                                                            100%                     24
                                   Full Name               90-99+%                   26
                                                          below 90%                   1
                                  Identifying               100%                     40
                                 Information*              99-99+%                   11
                                                            100%                     19
                                                           90-99+%                   28
                                Date Certified
                                                           70-89+%                    4
                                                          below 70%                   1
                      *
                       Social Security number, certification or license number, date of birth, or other State
                      specific identifier
                      Source: OIG analysis of all collected nurse aide registry records




                      24 We included records of nurse aides deemed active on the registry, as well as those with
                          revoked or terminated certifications and indications of abuse, neglect, or
                          misappropriation. The table reflects key regulations as listed in 42 CFR § 483.156(c)(1).
                      25 Information in Table 3 is based on review of actual registry data, whereas, Appendix F is

                          based on States’ responses to our survey questions. Discrepancies between the two tables
                          result from differences between what States reported to us and what we observed in their
                          data.



    OEI-07-03-00380   N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES
                                                                                                                   15
                R E C 0                      DATI                 N S

                           RECOMMENDATIONS
                           Nurse aide registries are intended to assure that only certifed nurse
                           aides without substantiated findings on their records are employed in
                           long- term care facilities. Noncompliance with registry processes , such
                           as the failure to list substantiated findings of nurse aides on registry
                           records timely, and the failure to remove nurse aides who have not
                           maintained an active certification , exposes long- term care facility
                          residents to greater risk of harm.
                          To assure that nurse aide registries effectively fulfll their intended
                          purpose , we recommend that CMS:
                               Ensure States update records of nurse aides with substantiated
                               adverse findings timely and remove registry records of nurse aides
                               who have not performed nursing or nursing- related services for
                               24 consecutive months , in accordance with Federal regulations.
                               CMS could achieve this by: (1) issuing program memoranda that
                               address updating nurse aide registry records , (2) conducting periodic
                               reviews of State registries , or (3) implementing greater oversight.
                               Reduce the potential for nurse aides with substantiated findings to
                               commit similar acts in another State. CMS could achieve this by
                               seeking legislative authority to create a national nurse aide registry
                               (a national registry also could be used to address identified data
                               limitations , such as the lack of dates when substantiated findings
                               are placed on registries).       CMS also could work with States to
                               increase information sharing.
                              Work with States to ensure registry records contain current
                              information on nurse aides. CMS could achieve this by requiring
                              long- term care facilities to report current information of nurse aides
                               they employ to the State registry upon hire and periodically
                              thereafter.

                          AGENCY COMMENTS
                          We appreciate the level of detail that CMS provided in its comments to
                          our recommendations. CMS generally concurred with our
                          recommendations , and we note that CMS has taken action to address
                          some of the findings raised in our report.




OEI- 07- 03- 00380        NURSE AIDE REGISTRIES: STATE COMPLIANCE AND PRACTICES
    R   E C O     M M E N D A T                        I O N               S

                      CMS has committed to issuing additional communications to States
                      affirming that all findings of abuse, neglect, and misappropriation of
                      resident property must be included in the nurse aide registry within
                      10 working days of the finding, and the names of nurse aides who have
                      performed no nursing or nursing-related services for 24 consecutive
                      months must be promptly removed from the nurse aide registry. In
                      addition, CMS will follow up with some of the States that seem to have
                      the most serious problems in maintaining an effectively functioning
                      nurse aide registry and offer support for a limited number of States that
                      wish to undertake quality improvement projects to improve the effective
                      operation of their nurse aide registry. Finally, CMS will consider a
                      variety of methods to work with States to ensure registry records
                      contain current information on nurse aides.




OEI-07-03-00380       N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   17
  ∆         A G E N C Y                 C O M M E N T S




OEI-07-03-00380     N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   18
    A G     E N   C Y      C O            M M E N T                          S 





OEI-07-03-00380         N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   19
    A G     E N   C Y      C O            M M E N T                          S 





OEI-07-03-00380         N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   20
    A G     E N   C Y      C O            M M E N T                          S 





OEI-07-03-00380         N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   21
    A G     E N   C Y      C O            M M E N T                          S 





OEI-07-03-00380         N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   22
           ∆
        A P P E N D I X                              ~            A
                      Many States do not update registry records with substantiated adverse findings
                      timely
                                 In 38 States, 2 separate agencies were responsible for maintaining the
                                 registry and investigating allegations of abuse, neglect, or
                                 misappropriation of property. These States are listed below along with
                                 the number of nurse aides with substantiated findings based on
                                 information provided to us by the State investigative agency. The
                                 number of nurse aides with substantiated findings identified in the
                                 registries in September 2003 and December 2003 is listed along with
                                 the remaining number of nurse aides yet to be updated on their registry
                                 record at the conclusion of our review. “Updated by 12/03” includes both
                                 nurse aides updated as of September 15, 2003, and those who were
                                 updated in the 3 months leading to December 2003.


         Nurse Aides                                                                           Nurse Aides
            with                          Yet to be                                               with                          Yet to be
                       Updated Updated                                                                       Updated Updated
State   Substantiated                     Updated                                       State Substantiated                     Updated
                      by 9/15/03 by 12/03                                                                   by 9/15/03 by 12/03
          Adverse                         by 12/03                                              Adverse                         by 12/03
          Findings                                                                              Findings
AK             3           1         1        2                                          MT         49           0        38       11
AL            98          98        98        0                                          NC         83          83        83        0
AZ            93          89        92        1                                          NV          9           9         9        0
CA           107          93       102        5                                          NY        102          83        86       16
CO           36           32        35        1                                          OH         91          83        89        2
CT            36           1        36        0                                          OK        101          60        84       17
DC             1           1         1        0                                          OR          4           1         4        0
DE            15          15        15        0                                          PA         29          27        28        1
FL           109           0         0      109                                          SC         18          18        18        0
HI             3           3         3        0                                          SD          6           6         6        0
ID            15          14        15        0                                          TN         26          25        26        0
IL           290         227       289        1                                          TX         97          54        59       38
IN            18          15        15        3                                          UT         10           9        10        0
KS             7           7         7        0                                          VA         45          45        45        0
KY            42          40        40        2                                          VT         15           0         7        8
LA            14          14        14        0                                          WA         78          78        78        0
MD            19          17        19        0                                          WI        148         140       146        2
ME            57          41        41       16                                          WY          5           5         5        0
MI            33          28        32        1                                         Total     1,978       1,528     1,742     236
MN            66          66        66        0                                        Source: OIG analysis of all collected nurse aide registry records




         OEI-07-03-00380          N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES                            23
  ∆
        A P P E N D I X                               ~            B
             Nurse aides with substantiated adverse findings may have active certifications in
             other States
                          The table below summarizes the number of nurse aides with
                          substantiated findings in one State and active certifications in another
                          at the time of our review.1 In the table below, “Certified Nurse Aides
                          with Substantiated Adverse Findings in Other States” refers to the
                          number of active nurse aides in that State with substantiated findings
                          in a different State.2 For example, Alabama (AL) had 42 active nurse
                          aides who each had substantiated findings in at least 1 of 18 different
                          States.

           Certified Nurse Aides                                                                          Certified Nurse Aides
            with Substantiated               Number of                                                     with Substantiated       Number of
State                                                                                   State
           Adverse Findings in              Other States                                                  Adverse Findings in      Other States
               Other States                                                                                   Other States
AK                     1                                1                                 MS                         11                    9
AL                    42                               18                                 MT                          8                    5
AR                    35                               10                                 NC                        42                    16
AZ                     9                                7                                 ND                        10                     6
CA                    21                               10                                 NE                        13                     6
CO                   21                                10                                 NJ                        15                     5
CT                   40                                17                                 NM                        24                    14
DC                   19                                 4                                 NV                          5                    3
DE                     4                                4                                 NY                         31                   17
FL                   222                               34                                 OH                        132                   30
GA                    45                               19                                 OK                         52                   16
HI                     3                                3                                 OR                          6                    4
IA                    12                                6                                 PA                         30                   14
ID                     7                                6                                 RI                          4                    2
IL                   280                               29                                 SC                         12                    7
IN                   18                                12                                 SD                         28                   12
KS                    27                               10                                 TN                         15                   10
KY                   110                               19                                 TX                         62                   17
LA                   135                               20                                 UT                          4                    3
MA                     6                                6                                 VA                         26                   16
MD                    18                                6                                 WA                         34                   14
ME                     4                                3                                 WI                          1                    1
MI                     6                                5                                 WV                         10                    4
MN                    21                               10                                 WY                          3                    2
MO                    31                                9                          Source: OIG analysis of collected nurse aide registry records

                          1 New Hampshire did not use a nationally unique identifier; therefore, we were unable to

                             evaluate interstate movement for this State. Vermont only supplied a nationwide unique
                             identifier for nurse aides with substantiated findings; therefore, we were unable to
                             determine whether nurse aides with substantiated findings from other States had active
                             certifications in Vermont.
                          2 There are 1,715 records for the 1,552 nurse aides because some nurse aides with

                             substantiated findings may be listed as active in more than 1 State. Only States with
                             values are listed.



OEI-07-03-00380           N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES                            24
  ∆
        A P P E N D I X                               ~           C
             Nurse aides with pending adverse findings may have active certifications in other
             States
                        The table below summarizes the number of nurse aides with pending
                        findings in one State and active certifications in another at the time of
                        our review.3 In the table below, “Certified Nurse Aides with Pending
                        Adverse Findings in Other States” refers to the number of active nurse
                        aides in that State with pending findings in a different State.4 For
                        example, Alabama (AL) had 12 active nurse aides who each had pending
                        findings in at least 1 of 4 different States.

             Certified Nurse                                                                                Certified Nurse
           Aides with Pending Number of Other                                                             Aides with Pending Number of Other
 State                                                                                     State
           Adverse Findings in   States                                                                   Adverse Findings in   States
              Other States                                                                                   Other States
  AK               1                                  1                                        MO                 8                        4
  AL               12                                 4                                        MT                 3                        1
  AR               5                                  3                                        NC                16                        5
  AZ                9                                 3                                        ND                 4                        3
  CA                3                                 3                                        NE                 5                        2
  CO                4                                 2                                        NJ                 2                        1
  CT              10                                  2                                        NM                 8                        3
  DC               3                                  1                                        NV                 2                        1
  FL              116                                 9                                        NY                37                        4
  GA               14                                 7                                        OH                28                        8
  HI                1                                 1                                        OK                17                        4
  IA                8                                 4                                        OR                 2                        1
  ID                3                                 1                                        PA                 6                        3
  IL              21                                  6                                        RI                 5                        3
  IN                1                                 1                                        SC                10                        5
  KS                3                                 3                                        SD                 8                        3
  KY               11                                 5                                        TN                 5                        3
  LA               13                                 3                                        TX                13                        2
  MA               15                                 4                                        UT                 2                        1
  MD               3                                  2                                        VA                11                        6
  ME               2                                  2                                        WA                28                        6
  MI                2                                 2                                        WV                 3                        1
  MN               1                                  1                                        WY                 1                        1
                                                                                      Source: OIG analysis of collected nurse aide registry records




                         3 New Hampshire did not use a nationally unique identifier; therefore, we were unable to
                            evaluate interstate movement for this State. Vermont only supplied a nationwide unique
                            identifier for nurse aides with substantiated findings; therefore, we were unable to
                            determine whether nurse aides with pending findings from other States had active
                            certifications in Vermont.
                         4 There are 485 records for the 450 nurse aides because some nurse aides with pending
                            findings are listed as active in more than 1 State. Only States with values are listed.



OEI-07-03-00380          N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES                              25
     ∆            A P P E N D I X                                ~            D
                  State suggestions and improvement efforts

                           State Efforts
                           • 	 Some States shared with other States data on nurse aides with
                               substantiated findings. For example, 1 State received lists of nurse
                               aides with substantiated findings from 13 States, and sent out their
                               own list to all States every 3 months. However, one State received
                               information from other States, but had no way to record it on their
                               present database.

                           • 	 Five States required long-term care facilities to periodically check
                               their registry to ensure that employed nurse aides renewed their
                               certifications.

                           • 	 Twenty-one of fifty-one States conducted criminal background
                               checks before certification and may deny certification based on the
                               results. However, only 10 of these States reported the findings of
                               those criminal background checks on their registries.

                           • 	 Of the States that conducted criminal background checks, 10 States
                               reported conducting national checks. One State reviewed every
                               address where the nurse aide had ever lived, while another reviewed
                               for convicted criminal acts within the past 20 years.
                           State Survey Respondents’ Suggestions for Improvement
                           • 	 Twenty States proposed creation of a national nurse aide registry.

                           • 	 Eight States proposed increasing automation of the registry
                               processes.

                           • 	 Three States suggested implementing better methods for keeping
                               nurse aides’ personal information up-to-date.

                           • 	 Five States included results of criminal background checks on
                               registry records.




OEI-07-03-00380            N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   26
              ∆         A P P E N D I X                               ~            E
                         State compliance with specific registry components

                                      The table below summarizes, by State, the percentage of records with
                                      full name, identifying information, and certification date fields complete
                                      as of September 15, 2003. All numbers were based on the total
                                      population of active nurse aides and nurse aides with substantiated
                                      adverse findings. This population is labeled “Records.” We excluded
                                      nurse aides with inactive records and nurse aides whose records were
                                      clearly marked on the registry as having substantiated findings from
                                      another State.

                                  Identifying Certification                                                                              Identifying Certification
State   Records     Full Name                                                           State          Records           Full Name
                                 Information      Date                                                                                  Information      Date
AK         2,690       99.963%           100%      98.959%                               MT                   9,632              100%       99.990%       99.886%
AL        71,120       99.999%       99.999%       99.999%                               NC                 104,319              100%           100%      99.995%
AR        22,422       99.996%           100%      99.938%                               ND                  15,469              100%           100%      76.023%
AZ        22,311       99.996%       99.996%       97.176%                               NE                  25,141           99.992%       99.992%       99.992%
CA       131,022       99.997%           100%         100%                               NH                  12,228              100%           100%      99.207%
CO        25,462       99.988%           100%         100%                               NJ                  28,802           99.993%           100%         100%
CT        61,762       99.953%       99.955%       99.955%                               NM                  23,629           99.979%           100%      99.945%
DC         4,965          100%           100%         100%                               NV                   5,731              100%       99.215%       99.215%
DE         5,624          100%           100%         100%                               NY                 102,646              100%           100%         100%
FL       298,327       99.997%           100%         100%                               OH                 195,903           96.200%       99.999%       99.836%
GA        57,876       99.998%           100%         100%                               OK                  44,753              100%       99.991%       99.806%
HI         8,367          100%           100%      99.988%                               OR                  17,918           99.994%           100%         100%
IA        38,080          100%           100%      71.657%                               PA                  85,997              100%           100%         100%
ID        11,639       99.991%           100%         100%                               RI                  10,563              100%           100%      99.328%
IL       283,717       99.994%           100%         100%                               SC                  23,849              100%           100%         100%
IN        43,612       99.989%       99.998%       99.819%                               SD                  19,501              100%           100%      99.995%
KS        38,443          100%           100%         100%                               TN                  32,704           99.997%           100%      99.966%
KY        93,656       99.996%           100%      36.208%                               TX                 107,718              100%           100%         100%
LA       121,816       99.984%           100%         100%                               UT                  14,360              100%           100%         100%
MA        48,844          100%           100%      99.679%                               VA                  46,154           99.417%       99.417%       89.095%
MD        18,769       99.995%           100%      99.995%                               VT                   4,674              100%           100%      99.080%
ME        18,122       99.906%           100%      96.441%                               WA                  49,055           99.994%           100%      80.349%
MI        41,098          100%           100%         100%                               WI                  58,237           99.998%           100%      99.840%
MN        50,609       33.739%           100%      99.945%                               WV                  14,235              100%           100%      99.993%
MO        62,288       99.989%       99.998%       99.255%                               WY                   4,996              100%           100%         100%
MS        16,572          100%           100%      98.678%                             Source: OIG analysis of all collected nurse aide registry records




            OEI-07-03-00380           N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES                            27
  ∆         A P P E N D I X                              ~            F

             Information available on the State nurse aide registry

                         This table summarizes States’ survey responses regarding the types of
                         information contained in their registry.

                                                                                                           Number of States
                                                                  Description
                                                                                                            (including DC)
                                                            Full Name                                            51
                                                     Substantiated Findings                                      50
                                                     Social Security Number                                      48
                                                          Date of Birth                                          47
                                                       Date of Certification                                     39
                                                  Record of Changes to Registry                                  37
                                                    Employment Verification                                      14
                                                   Criminal Background Check                                     10
                                             Source: Data reported by State respondents




OEI-07-03-00380          N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES                28
  ∆
        A C K N O W L E D G M E N T S



                    This report was prepared under the direction of Brian T. Pattison,
                    Regional Inspector General for Evaluation and Inspections in the
                    Kansas City regional office, and Gina C. Maree, Assistant Regional
                    Inspector General. Other principal Office of Evaluation and Inspections
                    staff who contributed include:

                    Brian T. Whitley, Project Leader
                    Dennis Tharp, Program Analyst

                    Michala Walker, Program Analyst

                    Tricia Fields, Program Analyst

                    Sandy Khoury, Program Specialist

                    Tricia Davis, Director, Medicare & Medicaid Branch

                    Technical Assistance

                    Barbara Tedesco, Mathematical Statistician




OEI-07-03-00380     N U R S E A I D E R E G I S T R I E S : S TAT E C O M P L I A N C E   AND   PRACTICES   29
